                            CLOSEOUT FOR M 97090026

        On 29 September 1997. a program director1 brought an allegation of misconduct in
science to OIG's attention. In his ad hoc review of the subject's2 NSF pr~posal,~           the
complainan? alleged that the subject misrepresented information in the proposal. The
complainant said, and OIG subsequently confirmed, that the subject had changed the titles of
two co-authored papers (papers 1 and 2)' in the proposal. The complainant said that the
subject had changed the title of one co-authored manuscript6 in the proposal as well. Most
significantly, the subject had changed the species named in the titles of the papers to another
species. OIG found no evidence that either paper title had been officially changed by the
respective journals. According to the complainant, the use of the second species in the titles
of the papers and manuscript made it appear as if the subject had been working for several
years on the second species. the focus of the proposal. The complainant claimed that the
subject had not been working or publishing results on the second species.

         Paper 1 discussed the authors' uncertainty in using the original species designation
and deferred any final decision on its use until they had more information. OIG learned from
an NSF expert7 in this field that considerable scientific disagreement existed over the
speciation of the organism discussed in the papers and manuscript. The expert explained that
some scientists thought the two names represented the same organism while others thought
the two names represented different organisms. OIG concluded that the subject changed the
titles of two papers listed in the "Biographic Sketch" and in the "Literature Cited" sections of
his NSF proposal. We concluded the title changes would be consistent with an attempt by
the subject to clarify his position in the debate. The Grant Proposal Guide instructs




                                             Page 1 of 2                             'M 97-26
applicants to prepare their proposals with "strict adherence to the rules of proper scholarship
and attribution." (NSF 98-2) The subject was, at least, careless in the way he provided
information in his NSF proposal. By failing to first change the titles with the journals, he
misrepresented the topic of these papers in his proposal. However, because of the ongoing
scientific debate, the changes did not necessarily misrepresent the research work in which the
subject was engaged. His actions, in this case, are not sufficiently serious to be considered
misconduct in science.

      With respect to the alleged change in the title of the co-authored manuscript, OIG
concluded that this was not an issue of misconduct in science. Manuscript titles can be
changed prior to publication. .

       This inquiry is closed and no further action will be taken.

cc: Staff Scientist, AIG-Oversight, Legal, IG




                                             Page 2 of 2
